I

No. 20-348

3fn fflfje

Supreme Court of tfje Unttefc States?
GREGORYS. MERCER,
Petitioner,
vs.
E. A. Vega, et at.
Respondents.

On Petition For Writ Of Certiorari To The United
States Court Of Appeals for The Fourth Circuit

CERTIFICATE OF SERVICE FOR
PETITION FOR REHEARING

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

RULE 29.3 & 29.4(c)
CERTIFICATE OF SERVICE
I hereby certify that on this 1st day of
December, 2020, I served three copies of the “Petition
for Rehearing” on each of the following Respondents
and Attorney General by certified, first-class mail:
1) Counsel for Respondents Eliezel A. Vega and
the Honorary Mark Herring being Toby J.
Heytens, Office of the Attorney General of
Virginia, 202 North 9th Street, Richmond, VA,
23219,
804-786-7240,
THeytens@oag.state.va.us;
2) Respondent Dawson, P.L.C., 999 Waterside
Drive, Suite 2525, Norfolk, VA, 23510, 757-2826601, and Post Office Box 21, Irvington, VA,
22480, 804-438-8182 with 757-282-6617 (FAX).

28 U.S.C. §1746 Declaration/Signed
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.

GRE^RY SHAWN MERCER, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401
gregorysmercer@gmail.com

No. 20-348

J/r @fje

Supreme Court of tfje Unttetr States;
GREGORY S. MERCER,
Petitioner,
vs.
E. A. Vega, et ol.
Respondents.
On Petition For Writ Of Certiorari To The United
States Court Of Appeals for The Fourth Circuit
CERTIFICATE OF SERVICE FOR:
PETITION FOR REHEARING FEE DELAYED BY USPS

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

DEC

W-** ?3

RECEIVED
DEC - 8 2020

RULE 29.3 & 29.4(c)
CERTIFICATE OF SERVICE
I hereby certify that on this 4th day of
December, 2020, I served three copies of the “Petition
for Rehearing Fee Delayed by USPS” on each of the
following Respondents and Attorney General by
certified, first-class mail:
1) Counsel for Respondents Eliezel A. Vega and
the Honorary Mark Herring being Toby J.
Heytens, Office of the Attorney General of
Virginia, 202 North 9th Street, Richmond, VA,
23219,
804-786-7240,
THeytens@oag.state.va.us;
2) Respondent Dawson, P.L.C., 999 Waterside
Drive, Suite 2525, Norfolk, VA, 23510, 757-2826601, and Post Office Box 21, Irvington, VA,
22480, 804-438-8182 with 757-282-6617 (FAX).

28 U.S.C. §1746 Declaration/Signed
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.

v

GEGg^RY SHAWN MERCER, pro se
ml4 Borge Street
Oakton, Virginia 22124
202-431-9401
gregorysmercer@gmail.com

No. 20-348

3fn fflfre

Supreme Court of tfje Unttefc States?
GREGORYS. MERCER,
Petitioner,
vs.
E. A. Vega, et al.
Respondents.
On Petition For Writ Of Certiorari To The United
States Court Of Appeals for The Fourth Circuit
PETITION FOR REHEARING FEE DELAYED BY USPS

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

Mm
RECEfVEQ

s7o@l,^s-&C -4 PH 0 73

1

PETITION FOR REHEARING FEE DELAYED
BY USPS

This SCOTUS denied Petitioner’s 9/11/20
Petition for Writ of Certiorari on 11/9/20.
In
accordance to SCOTUS Rule 44.2, Petitioner has until
12/4/20 to file a Petition for Rehearing. Petitioner
mailed two identical copies of his 12/1/20 Petition for
Rehearing in Good Faith and not for Delay from
Virginia and from Washington, DC to the SCOTUS on
12/1/20 to ensure there was not a repeat of what
happened to his 9/11/20 Petition for Writ of Certiorari
which was intercepted by agents of Respondents after
it was filed at a SCOTUS Guard Booth behind the
SCOTUS Building on 9/11/20. SCOTUS Rule 44.2
refers to SCOTUS Rule 44.1 which states, “The
petitioner ... shall pay the filing fee prescribed by Rule
38(b), ...”

On 12/1/20, Petitioner realized he had forgotten
to include his SCOTUS Rule 38(b) Fee of $200 with
either of his Petitions for Rehearing mailed from
Virginia and from Washington, DC to the SCOTUS.
Petitioner mailed a check for $200 to SCOTUS (c/o
Redmond Barnes) from Washington, DC on 12/1/20
with USPS Certified Tracking Number 7020 2450
0000 2156 2943. The USPS routed this mail through
Gaithersburg, MD and it should arrive at the
SCOTUS sometime Saturday, 12/5/20. Meanwhile,
both of the Petitions for Rehearing arrived at the
SCOTUS at 10:58 am on 12/2/20; Respondent Dawson,
P.L.C. received service of Petitioner’s 12/1/20 Petition
for Rehearing by USPS at 11:15 am on 12/3/20;

2

Respondents Eliezel A. Vega’s and the Honorable
Mark Herring’s counsel Toby J. Heytens’ copy of
Petitioner’s 12/1/20 Petition for Rehearing “Arrived at
Unit RICHMOND, VA 23219” at 12:12 pm on 12/4/20.
Petitioner’s $200 SCOTUS Rule 38(b) check to
“The Clerk of the Supreme Court” with USPS
Certified Tracking Number 7020 2450 0000 2156 2943
as of 12/4/20 at 8:25 pm is “In Transit, Arriving On
Time” with “Expected Delivery by Saturday,
December 5, 2020 by 9:00 pm.”
Petitioner documents his frustration and
apologizes to the SCOTUS. Petitioner left two
messages to each Jeffrey Atkins and Redmond Barnes
on 12/2/20 and 12/3/20 alerting them to Petitioner’s
payment difficulties. This document is also to be filed
at the SCOTUS Guard Booth before 12/4/20 at
midnight in addition to being mailed.

28 U.S.C. §1746 Declaration/Signed
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.

GREGORY SHAWN MERCER, pro se
^4^4 Borge Street
Oakton, Virginia 22124
202-431-9401
gregorysmercer@gmail.com

